IN TIE

SUPREME COURT OF THE UNITED STATES

ALONSO SANCIHZ OCHOA
Petitioner
V.

UNITED STATES OF AMERICA,
Respondent

On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Fifth Circuit

CERTIFICATE 0F FILING
AND SERVICE

I, BRETT D. BOONE, Counsel of Record for ALONSO SANCIHZ OCHOA,
being first duly sworn according to law, depose and say that the required number of
the following documents:

1.

Petition for writ ofcertiorari to the united states court ofAppeals for
the Fifth Circuit; and

2.

Motion forLeave to proceed in Forma pauperis;

were filed with this Court and served on counsel for the United States on this same

date, by depositing the required number of originals and copies of the documents into
the United States Mail in sealed envelopes, first class United States postage prepaid

or by delivery to a third-party commercial carrier for delivery within 3 calendar days

and addressed to: Supreme Court of the United States, Office of the Clerk,1 First

Street N.E., Washington, DC 20543, and United States Attorney for the Northern
District of Texas, 801 Cheny Street, Suite 1700, Fort Worth, TX 76102 (Phone: 817-

252-5253)(counselforRespondent)andsolicitorGeneraloftheunitedstates,Room
5614, Department of Justice, 950 Pennsylvania Avenue, N.W., Washington, DC
20530-0001 (Phone: 202-514-2217) (counsel for Respondent).

Respectfully submitted,

Date:

-

`_

i

-.-`

BRETT D. BOONE
6205 Airport Freeway
Fort Worth, Texas 76117
(817) 83 1 -0100

(817) 831 -053 7 Facsimile

Email : bboone@flash.net
Texas State Bar No: 02626800

ATTORNEY FOR OCHOA

